SUPREME COURT OF THE UNITED STATES
CASE NO.:

CHONG LENG LEE
Petitioner,
VS.
SSTATE OF WISCONSIN
Respondent(s).

PROOF OF SERVICE

I, Chong Leng Lee, do swear or declare that oon this date, November 24,
2020, as required by Supreme Court Rule 29, I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI J
on each party to the above proceeding or that party's counsel by depositing
an envelope containing the above documents in the United States nail property
addressed to them for delivery within 3 calendar days.
The names and address of those srved are as follows:
Scott E. Rosenow (Assistant Attorney General)
f.O. box 7857
Madison, WI 53707
I declare under the penalty of perjury that the foregoing is true and
correct.
Dated this 24th day of November, 2020.

Received
JAN - 5 2021

received
DEC - 9 2020

